NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

MAR 6 2020

FOR THE NINTH CIRCUIT
DOROTHY GRACE MARIE
MARAGLINO

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-16189

5 '

D.C.No. l:17-cv-01535-LJO-BAM
Plaintiff-Appellant,
MEMORANDUM*

v.

J. ESPINOSA, Warden; C. COOPER,
Associate Warden,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
Lawrence J. O’Neill, District Judge, Presiding
Submitted March 3, 2020**
Before:

MURGUIA, CHRISTEN, and BADE, Circuit Judges.

California state prisoner Dorothy Grace Marie Maraglino appeals pro se
from the district court’s judgment dismissing her 42 U.S.C. § 1983 action alleging '
federal and state law violations in connection with restitution payments. We have

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

jurisdiction under 28 U.S.C. § 1291. We review de novo the district court’s
dismissal under 28 U.S.C. §§ 1915A and 1915(e)(2)(b)(ii). Resnick v. Hayes, 213
F.3d 443, 447 (9th Cir. 2000); Barren v. Harrington, 152 F.3d 1193, 1194 (9th Cir.
1998) (order). We affirm.
The district court properly dismissed Maraglino’s due process claim arising
from the withholding of restitution and fees from deposits to her inmate trust
account because Maraglino had an adequate postdeprivation remedy under
California law. See Hudson v. Palmer, 468 U.S. 517, 533 (1984) (“[A]n
unauthorized intentional deprivation of property by a state employee does not
constitute a violation of the procedural requirements of the Due Process Clause of
the Fourteenth Amendment if a meaningful postdeprivation remedy for the loss is '
available.”); Barnett v. Centoni, 31 F.3d 813, 816-17 (9th Cir. 1994) (“California
[l]aw provides an adequate post-deprivation remedy for any property
deprivations.”).
The district court properly dismissed Maraglino’s due process claim arising
from the treatment of her prison appeals because Maraglino “lack[s] a separate
constitutional entitlement to a specific prison grievance procedure.” Ramirez v.
Galaza, 334 F.3d 850, 860 (9th Cir. 2003).
The district court did not abuse its discretion in declining to exercise
supplemental jurisdiction over Maraglino’s state law claims because the court

2

19-16189

V, •

dismissed the federal claims over which it had original jurisdiction. See 28 U.S.C.
§ 1367(c)(3); Lacey v. Maricopa County, 693 F.3d 897, 940 (9th Cir. 2012) (en
banc).
AFFIRMED.

3

19-16189

Case l:17-cv-01535-LJO-BAM

Document 27

Filed 05/30/19

Page 1 of 3

1
2
3
4
5

6
7

8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
11

DOROTH Y GRACE MARAGLINO,

12

Plaintiff,

13
14

v.
J. ESPINOSA, et al.,

15

Defendants.

16
17

Case No. 1:17-cv-01535-LJO-BAM (PC)
ORDER DENYING MOTION FOR
EXTENSION OF TIME TO FILE
OBJECTIONS TO FINDINGS AND
RECOMMENDATIONS
(ECF No. 26)
ORDER ADOPTING FINDINGS AND
RECOMMENDATIONS TO DISMISS
ACTION FOR FAILURE TO STATE A
COGNIZABLE CLAIM FOR RELIEF
(ECF No. 23)

18
Plaintiff Dorothy Grace Maraglino (“Plaintiff’) is a state prisoner proceeding pro se and

19
20

in forma pauperis in this civil rights action pursuant to 42 U.S.C. § 1983. This matter was

21

referred to a United States Magistrate Judge pursuant to 28 U.S.C. § 636(b)(1)(B) and Local Rule

22

302.

23

On April 8, 2019, the assigned Magistrate Judge issued findings and recommendations

24

recommending that the federal claims in this action be dismissed based on Plaintiffs failure to

25

state a claim upon which relief may be granted, and the Court decline to exercise supplemental

26

jurisdiction over Plaintiffs purported state law claims. (ECF No. 23.) Those findings and

27

recommendations were served on Plaintiff and contained notice that any objections thereto were

28

to be filed within fourteen (14) days after service. (Id, at 8.) On April 29, 2019, the Magistrate
1

Case l:17-cv-01535-LJO-BAM Document 27 Filed 05/30/19 Page 2 of 3
1

Judge granted Plaintiff a thirty-day extension of time to file objections to the findings and

2

recommendations. (ECF No. 25.) Currently before the Court is Plaintiffs second request for

3

extension of the deadline to file objections, filed May 28, 2019. (ECF No. 28.)

4

In her request, Plaintiff again argues that because she is not a lawyer and has been unable

5

to locate counsel to represent her, she requires additional time to locate pro bono counsel to draft

6

her objections. However, Plaintiffs motion also addresses the substance of the Magistrate

7

Judge’s findings and recommendations. Specifically, Plaintiff states that the Court has failed to

8

address her claim regarding the unlawful percentages CDCR takes out from inmates’ deposits for

9

the purposes of restitution. Plaintiff argues that to pursue this claim in state court would be

10

“moot” because the state has permitted CDCR to operate under their own rules, and has not held

11

CDCR to the state garnishment rules. Thus, Plaintiff contends, the argument needs to be decided

12

in federal court, to order the state to hold CDCR responsible for following the state’s garnishment

13

rules. Plaintiff further argues that the individual defendants are liable for failing to act in

14

correcting the unlawful garnishment policy. (Id.)

15

The Court finds that Plaintiff has not presented good cause for a further extension of time

16

to file her objections. While Plaintiff argues that she requires time to find legal counsel to

17

represent her in this matter, upon review of the instant motion the Court finds that Plaintiff has

18

clearly articulated her position regarding the substance of her claims. Furthermore, the need to

19

seek counsel alone does not present good cause, particularly in light of the previous extension of

20

this deadline. Therefore, the Court denies the motion for extension of time, and instead construes

21

the instant filing as Plaintiffs objections to the findings and recommendations.

22

Plaintiffs objections fail to cure the deficiencies identified in the Magistrate Judge’s

23

findings and recommendations. Despite being provided the relevant legal standards, Plaintiffs

24

objections generally restate the same conclusory allegations that the Magistrate Judge found

25

insufficient to state any cognizable claims against the defendants. As discussed in the findings

26

and recommendations, Plaintiff cannot state a cognizable claim for relief under the Fourteenth

27

Amendment based on restitution deductions from her inmate trust account. Even if, as Plaintiff

28

contends, the deduction was not authorized, California law provides an adequate post-deprivation
2

Case l:17-cv-01535-LJO-BAM Document 27

Filed 05/30/19

Page 3 of 3

1

remedy. Barnett v. Centoni. 31 F.3d 813. 816-17 (9th Cir. 1994). Plaintiff s conclusory

2

allegations that pursuit of her claims in state court are “moot” are not sufficient to provide a basis

3

for rejecting the Magistrate Judge’s findings and recommendations.

4

In accordance with the provisions of 28 U.S.C. § 636 (b)(1)(C), this Court has conducted a

5

de novo review of the case. Having carefully reviewed the entire file, including Plaintiff s

6

objections, the Court concludes that the Magistrate Judge’s findings and recommendations are

7

supported by the record and by proper analysis.

8
9
10
11
12
13
14
15
16

Accordingly, IT IS HEREBY ORDERED that:
1. Plaintiffs motion for extension of time, (ECF No. 26), is DENIED;
2. The findings and recommendations issued on April 8, 2019, (ECF No. 23), are adopted in
full;
3. The federal claims in this action are dismissed, with prejudice, due to Plaintiff s failure to
state a claim upon which relief may be granted;
4. The exercise of supplemental jurisdiction over Plaintiffs state law claims is declined, and
the state law claims are dismissed, without prejudice; and
5. The Clerk of the Court is directed to close this case.

17
18
19

IT IS SO ORDERED.
Dated:

/s/ Lawrence J. O’Neill

May 30, 2019

UNITED STATES CHIEF DISTRICT JUDGE

20

21
22
23
24

25
26
27

28
3

Case l:17-cv-01535-LJO-BAM Document 23 Filed 04/08/19 Page 1 of 8

1
2
3
4
5

6
7

8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
11
12

DOROTHY GRACE MARIE
MARAGLINO,
Plaintiff,

13

v.

14

15

J. ESPINOSA, et al.,
Defendants.

16

Case No. l:17-cv-01535-LJO-BAM (PC)
FINDINGS AND RECOMMENDATIONS
TO DISMISS ACTION FOR FAILURE TO
STATE A COGNIZABLE FEDERAL
CLAIM FOR RELIEF
(ECF No. 22)
FOURTEEN-DAY DEADLINE

17
18

Plaintiff Dorothy Grace Marie Maraglino (“Plaintiff’) is a state prisoner proceeding pro se

19

and in forma pauperis in this civil rights action under 42 U.S.C. § 1983. On May 14, 2018, the

20

Court screened Plaintiffs complaint and granted her leave to amend within thirty (30) days.

21

(ECF No. 10.) When Plaintiff failed to respond to the order, the Court ultimately dismissed the

22

action based on Plaintiffs failure to state a cognizable claim, failure to obey a court order and

23

failure to prosecute. (ECF No. 14.) On October 26, 2018, the Court granted Plaintiffs request to

24

reopen this action and directed her to file an amended complaint. (ECF No. 17.) Following

25

multiple extensions of time, Plaintiffs first amended complaint, filed on January 28, 2019, is

26

currently before the Court for screening. (ECF No. 22.)

27

III

28
1

Case l:17-cv-01535-LJO-BAM Document 23 Filed 04/08/19 Page 2 of 8
Screening Requirement and Standard

1

I.

2

The Court is required to screen complaints brought by prisoners seeking relief against a

3

governmental entity and/or against an officer or employee of a governmental entity. 28 U.S.C.

4

§ 1915A(a). Plaintiffs complaint, or any portion thereof, is subject to dismissal if it is frivolous

5

or malicious, if it fails to state a claim upon which relief may be granted, or if it seeks monetary

6

relief from a defendant who is immune from such relief.

7

1915 (e)(2)(B)(ii).

28 U.S.C. §§ 1915A(b);

8

A complaint must contain “a short and plain statement of the claim showing that the

9

pleader is entitled to relief. . . .” Fed. R. Civ. P. 8(a)(2). Detailed factual allegations are not

10

required, but “[tjhreadbare recitals of the elements of a cause of action, supported by mere

11

conclusory statements, do not suffice.” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (citing Bell

12

Atlantic Corp. v. Twomblv. 550 U.S. 544, 555 (2007)). While a plaintiffs allegations are taken

13

as true, courts “are not required to indulge unwarranted inferences.” Doe I v. Wal-Mart Stores.

14

Inc.. 572 F.3d 677, 681 (9th Cir. 2009) (internal quotation marks and citation omitted).

15

To survive screening, Plaintiffs claims must be facially plausible, which requires

16

sufficient factual detail to allow the Court to reasonably infer that each named defendant is liable

17

for the misconduct alleged. Iqbal. 556 U.S. at 678 (quotation marks omitted); Moss v. U.S.

18

Secret Serv.. 572 F.3d 962, 969 (9th Cir. 2009). The sheer possibility that a defendant acted

19

unlawfully is not sufficient, and mere consistency with liability falls short of satisfying the

20

plausibility standard. Iqbal. 556 U.S. at 678 (quotation marks omitted); Moss. 572 F.3d at 969.
Plaintiffs Allegations

21

II.

22

Plaintiff is currently housed at the Central California Women’s Facility (“CCWF”) in

23

Chowchilla, California. Plaintiff names the following defendants: (1) J. Espinoza,1 Warden; (2)

24

C. Cooper, Associate Warden; (3) Timothy Lockwood, Director of Policy for the California

25

Department of Corrections and Rehabilitation (“CDCR”); (4) John Doe #1, Director of Victim’s

26

Compensation Government Claim Board; and (5) John Doe #2, Secretary of the CDCR.

27
28

i

Variously spelled in the amended complaint as “Espinosa” or “Espinoza.”
2

Case l:17-cv-01535-LJO-BAM Document 23 Filed 04/08/19 Page 3 of 8

1

Plaintiff alleges that on January 31, 2018, she sent an Inmate Request for Interview (Form

2

22) to the CCWF accounting department, notifying the department that a settlement payment

3

would be arriving from San Diego and that the payment was eligible for the restitution exemption

4

pursuant to Title 15, Section 3097(j).2 Plaintiff asked the accounting department, which was

5

overseen by Defendant Cooper (who was employed by Defendant Espinoza, who was employed

6

by John Doe #2), to ensure that there were no deductions. The accounting department responded

7

on February 2, 2018, indicating that the deduction would depend on the nature of the settlement.

8

On February 3, 2017, Plaintiff responded to the accounting department that it was a

9

settlement for injuries, but she did not specify that the injuries need not be physical and that

10

destruction of property (injury in civil law) was the cause for reimbursement.3

11

On February 6, 2017, the accounting department provided Plaintiff with a copy of Title

12

15, Sections 3097(h) and (j), and indicated that unless the settlement fell within policy, then

13

restitution would be taken.

14

On February 23, 2017, the accounting department received a deposit to Plaintiffs trust

15

account in the amount of $2,500.00 from the County of San Diego. The accounting department

16

withdrew $1,250.00 and put it towards the restitution debt assigned to Plaintiff by the San Diego

17

Superior Court, which was collected by the Victim’s Compensation Board directed by Defendant

18

John Doe #2.

19

deduction. The accounting department also withdrew $125.00 in administrative fees.
On March 8, 2017, Plaintiff filed an inmate appeal to dispute the removal of funds. On

20

21

The accounting department relied on Title 15, Section 3097 to justify the

March 15, 2017, the appeal was rejected for use of the incorrect form.

22

On March 17, 2017, Plaintiff filed an Inmate Appeal Form 602 to appeal the removal of

23

funds. Plaintiff cited that the Title 15 exception clause and provided supporting documentation in

24

the form of accounting statements and court settlement papers.

25

On March 20, 2017, Defendant Cooper accepted the appeal at the first level of review.

26

On March 30, 2017, Defendant Cooper denied the appeal, indicating that the deduction was not

27
28

2
3

In her original complaint, Plaintiff alleged that this event occurred on January 31, 2017.
Plaintiffs dates are not chronological, and the Court presumes typographical errors.
3

Case l:17-cv-01535-LJO-BAM

Document 23 Filed 04/08/19 Page 4 of 8

1

eligible for the exception under Title 15 because the payment was for reimbursement for mail, not

2

personal property.

3
4

5
6
7

8
9
10

On April 12, 2017, Plaintiff filed for a second level review of her appeal, arguing that her
mail was a controlled property item according to CCWF rules and was personal property.
On May 30, 2017, Plaintiff sent an inmate request for interview to the appeals coordinator,
H. Castro, asking for a status as there had been no response at the second level.
On June 2, 2017, Mr. Castro responded that the second level review had not been
received. Plaintiff was past the time constraints and could not re-file for a second level review.
On June 2, 2017, Plaintiff received the missing second level review via the prison mail.
The documents were unstamped and unprocessed.

11

Plaintiff went to the Inmate Advisory Committee (“IAC”). The IAC representative agreed

12

to see if there were any options. In addition, Plaintiffs family made calls to the administration on

13

her behalf.

14

During the second week of August, Correctional Lieutenant Dunn, Defendant Espinoza’s

15

Administrative Assistant and CCWF’s Public Information Officer, met with Plaintiff at the lAC’s

16

office. Lt. Dunn agreed to speak to the Warden and ask if she would be willing to accept the 602

17

for a second level review because it had been lost in the facility’s mail.

18

On August 10, 2017, Lt. Dunn informed Plaintiff that the Warden had agreed to conduct

19

the second level review. On August 11, 2017, Plaintiff submitted the 602 and attachments to Lt.

20

Dunn. Lt. Dunn walked the papers to the Appeals Coordinator’s office and explained that the

21

Warden had granted the exception.

22
23

On August 15, 2017, the appeals department stamped the documents received and
assigned them to Defendant Espinoza for review.

24

On September 27, 2017, Defendant Espinoza denied the appeal, claiming that the

25

settlement was an Eighth and Fourteenth Amendment rights case and not a reimbursement.

26

Defendant Espinoza also indicated that the settlement did not mean that San Diego accepted

27

liability for the claim.

28

On October 3, 2017, Plaintiff submitted the appeal to the third level of review.
4

Case l:17-cv-01535-LJO-BAM Document 23 Filed 04/08/19 Page 5 of 8

1

On October 30, 2017, Sara Malone from the CDCR Ombudsman’s office met with

2

Plaintiff. Ms. Malone informed Plaintiff that her appeal had reached administrative exhaustion.

3

She also said that the reason for the denial was that the suit resulting in settlement was based on

4

denial of Due Process. Plaintiff explained to Ms. Malone that the Fourth Amendment claim was

5

applicable because the mail was destroyed without notifying the Plaintiff, thereby violating her

6

Fourth Amendment rights and making recovery of the property impossible and requiring financial

7

reimbursement. Plaintiff also showed Ms. Malone the court documents indicating that some of

8

the mail content included correspondence course materials. Ms. Malone said there was nothing

9

more that she could do. Plaintiff then let Ms. Malone know that she would pursue resolution

10

through the courts.

11

Plaintiff alleges that the unreasonable seizure of the $1,375.00 from her prison trust

12

account violated her rights guaranteed under the Fourth Amendment to the United States

13

Constitution. Plaintiff also alleges that Title 15, Section 3097 also violates her rights against

14

unreasonable seizures, along with the California rules of garnishment.

15
16

Plaintiff seeks declaratory and injunctive relief, along with compensatory and punitive
damages.

17

III.

18

A. Linkage Requirement

19

The Civil Rights Act under which this action was filed provides:

20

Every person who, under color of [state law] ... subjects, or causes to be
subjected, any citizen of the United States ... to the deprivation of any rights,
privileges, or immunities secured by the Constitution ... shall be liable to the party
injured in an action at law, suit in equity, or other proper proceeding for redress.

21
22

Discussion

23

42 U.S.C. § 1983. The statute plainly requires that there be an actual connection or link between

24

the actions of the defendants and the deprivation alleged to have been suffered by Plaintiff. See

25

Monell v. Dep’t of Soc. Servs.. 436 U.S. 658, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978); Rizzo v.

26

Goode, 423 U.S. 362, 96 S. Ct. 598, 46 L. Ed. 2d 561 (1976). The Ninth Circuit has held that “[a]

27

person ‘subjects another to the deprivation of a constitutional right, within the meaning of section

28

1983, if he does an affirmative act, participates in another’s affirmative acts or omits to perform
5

Case l:17-cv-01535-LJO-BAM

Document 23 Filed 04/08/19

Page 6 of 8

1

an act which he is legally required to do that causes the deprivation of which complaint is made.”

2

Johnson v. Duffy. 588 F.2d 740, 743 (9th Cir.1978).

3

Plaintiff fails to link any of the defendants to a deprivation of her rights. There is no

4

indication from Plaintiffs allegations that Defendants Espinoza, Cooper, Timothy Lockwood,

5

John Doe #1 or John Doe #2 were involved in a deprivation of her rights or the deduction of

6

money from her trust account. Insofar as Plaintiff is attempting to sue Defendants based on their

7

supervisory roles, she may not do so. Liability may not be imposed on supervisory personnel for

8

the actions or omissions of their subordinates under the theory of respondeat superior. Iqbal. 556

9

U.S. at 676-77; Simmons v. Navajo Ctv„ Ariz.. 609 F.3d 1011, 1020-21 (9th Cir. 2010); Ewing

10

v. City of Stockton. 588 F.3d 1218, 1235 (9th Cir.2009); Jones v. Williams. 297 F.3d 930, 934

11

(9th Cir. 2002).

12

Supervisors may be held liable only if they “participated in or directed the violations, or

13

knew of the violations and failed to act to prevent them.” Taylor v. List. 880 F.2d 1040, 1045 (9th

14

Cir. 1989); accord Starr v. Baca. 652 F.3d 1202, 1205-06 (9th Cir. 2011); Corales v. Bennett. 567

15

F.3d 554, 570 (9th Cir. 2009). Supervisory liability may also exist without any personal

16

participation if the official implemented “a policy so deficient that the policy itself is a

17

repudiation of the constitutional rights and is the moving force of the constitutional violation.”

18

Redman v. County of San Diego, 942 F.2d 1435, 1446 (9th Cir. 1991) (citations and quotations

19

marks omitted), abrogated on other grounds by Farmer v. Brennan. 511 U.S. 825 (1970).

20

Plaintiff has failed to link the defendants to a constitutional violation either by direct

21

conduct in the alleged constitutional violation or by identifying a policy that was so deficient that

22

the policy itself is a repudiation of the Plaintiffs rights. Instead, Plaintiff has merely identified

23

defendants either as reviewers of her prisoner grievance after deduction of the money from her

24

trust account based on CDCR regulations (Defendants Espinoza and Cooper) or as supervisors of

25

CDCR (Defendant Lockwood and John Doe #2) or a member of the Victim’s Compensation

26

Board (John Doe #1). Plaintiff has been unable to cure this deficiency.

27

B. Review of Grievances

28

As noted above, Plaintiff appears to bring suit against Defendants Espinoza and Cooper
6

Case l:17-cv-01535-LJO-BAM

Document 23 Filed 04/08/19 Page 7 of 8

1

based on their denial of her inmate appeals (grievances), including delays in responding.

2

However, Plaintiff cannot pursue any claims against staff relating to their involvement in the

3

administrative processing or review of her prisoner grievances. The existence of an inmate

4

grievance or appeals process does not create a protected liberty interest upon which Plaintiff may

5

base a claim that she was denied a particular result or that the process was deficient. Ramirez v.

6

Galaza. 334 F.3d 850, 860 (9th Cir. 2003); Mann v. Adams. 855 F.2d 639, 640 (9th Cir. 1988).

7

Plaintiff has been unable to cure this deficiency.

8

C. Restitution Deductions

9

Although Plaintiff frames her claim as one for violation of the Fourth Amendment, it

10

appears more properly to be a claim for violation of her property interests under the Fourteenth

11

Amendment. However, Plaintiff cannot state a cognizable claim for relief under the Fourteenth

12

Amendment based on restitution deductions from her inmate trust account. See Thompson v.

13

Swarthout. No. CIV S-l 1-0780 GEB DAD P, 2012 WL 1682029, at *3 (E.D. Cal. May 14, 2012);

14

see also Craft v. Ahuia. 475 Fed.App’x 649, 650 (9th Cir. 2012) (district court properly dismissed

15

substantive and procedural due process claims based on restitution deductions from an inmate

16

trust account); Abney v. Alameida. 334 F.Supp.2d 1221, 1231-32 (S.D. Cal. 2004) (allegations

17

regarding deductions from prisoner’s trust account to satisfy restitution order whether authorized

18

or unauthorized by state law fail to state a claim for violation of substantive and procedural due

19

process rights). Even if the deduction was not authorized, the Supreme Court has held that “an

20

unauthorized intentional deprivation of property by a state employee does not constitute a

21

violation of the Due Process Clause of the Fourteenth Amendment if a meaningful

22

postdeprivation remedy for the loss is available.” Hudson v. Palmer. 486 U.S. 517, 533 (1984).

23

California law provides an adequate post-deprivation remedy. Barnett v. Centoni. 31 F.3d 813,

24

816-17 (9th Cir. 1994).
State Law Claims

25

D.

26

Plaintiff also is attempting to pursue state law claims in this action.

Under 28 U.S.C. §

27

1367(a), in any civil action in which the district court has original jurisdiction, the “district courts

28

shall have supplemental jurisdiction over all other claims that are so related to claims in the action
7

Case l:17-cv-01535-LJO-BAM Document 23

Filed 04/08/19

Page 8 of 8

1

within such original jurisdiction that they form part of the same case or controversy under Article

2

III of the United States Constitution,” except as provided in subsections (b) and (c). The Supreme

3

Court has stated that “if the federal claims are dismissed before trial, ... the state claims should be

4

dismissed as well.” United Mine Workers of Am. v. Gibbs. 383 U.S. 715, 726 (1966). Although

5

the Court may exercise supplemental jurisdiction over state law claims, Plaintiff must first have a

6

cognizable claim for relief under federal law. 28 U.S.C. § 1367. As Plaintiff has not stated a

7

cognizable claim for relief under federal law, the Court will decline to exercise supplemental

8

jurisdiction over Plaintiffs state law claims.

9

IV.

Conclusion and Recommendation

10

Based on the above, IT IS HEREBY RECOMMENDED as follows:

11

1.

12

claim upon which relief may be granted; and

13

2.

14

state law claims.

15

These Findings and Recommendation will be submitted to the United States District Judge

16

assigned to the case, pursuant to the provisions of Title 28 U.S.C. § 636(b)(1). Within fourteen

17

(14) days after being served with these Findings and Recommendation, Plaintiff may file written

18

objections with the Court. The document should be captioned “Objections to Magistrate Judge’s

19

Findings and Recommendation.” Plaintiff is advised that failure to file objections within the

20

specified time may result in the waiver of the “right to challenge the magistrate’s factual findings”

21

on appeal. Wilkerson v. Wheeler. 772 F.3d 834, 839 (9th Cir. 2014) (citing Baxter v. Sullivan.

22

923 F.2d 1391, 1394 (9th Cir. 1991)).
IT IS SO ORDERED.

23
24

Dated:

The federal claims in this action be dismissed based on Plaintiffs failure to state a

The Court decline to exercise supplemental jurisdiction over Plaintiffs purported

April 5, 2019
UNITED STATES MAGISTRATE JUDGE

25
26
27
28
8

Additional material
from this filing is
available in the
Clerk's Office.

